TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                            The Law Which Penalizes
                       Erroneous Refund and Credit Claims
                          Was Not Properly Implemented



                                      September 26, 2013

                              Reference Number: 2013-40-123




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


THE LAW WHICH PENALIZES                               subsequently revised its interpretation of the law
ERRONEOUS REFUND AND CREDIT                           as to when the erroneous refund penalty could
CLAIMS WAS NOT PROPERLY                               be assessed, and issued an updated
IMPLEMENTED                                           memorandum in May 2012.
                                                      Although the IRS revised its interpretation of the
                                                      law, it has not developed processes and
Highlights                                            procedures to enable those functions (Campus
                                                      Operations) that disallow the majority of
Final Report issued on                                individual tax credits to assess the penalty. For
September 26, 2013                                    example, in the year after the IRS revised its
                                                      interpretation of the law (June 3, 2012 through
Highlights of Reference Number: 2013-40-123           May 25, 2013), there were 709,123 individual
to the Internal Revenue Service Commissioners         tax credits disallowed by these functional areas
for the Small Business/Self-Employed Division         for which the IRS could have potentially
and the Wage and Investment Division.                 assessed erroneous refund penalties totaling
                                                      more than $1.5 billion.
IMPACT ON TAXPAYERS
                                                      IRS management raised concerns about the
Congress enacted the erroneous claim for              costs and benefits of establishing processes and
refund or credit penalty (referred to as the          procedures for the Campus Operations to
erroneous refund penalty) to enhance the IRS’s        assess erroneous refund penalties. However,
ability to address the growing number of              the IRS has not provided any documentation
erroneous tax credit and refund claims filed.         and/or analysis to support the validity of these
Taxpayers who claim excessive tax credits or          concerns. In view of the significant problem of
refunds may be penalized up to 20 percent of          erroneous claims for credits and refunds and the
the erroneous tax credit or refund claim. Refund      related costs to the Government, TIGTA
or credit claims that have no reasonable basis in     believes that the IRS should reexamine its
law create unnecessary burden on both                 decision and put appropriate procedures and
taxpayers and the IRS by straining resources          processes in place to comply with this section of
and impeding effective tax administration.            law.
WHY TIGTA DID THE AUDIT                               WHAT TIGTA RECOMMENDED
The Small Business and Work Opportunity Tax           TIGTA recommended that the IRS develop
Act of 2007 amended the Internal Revenue              processes and procedures to enable Campus
Code to allow for a monetary penalty for              Operations to assess the erroneous refund
erroneous tax refund or tax credit claims. This       penalty for disallowed credit claims that are
audit was initiated to determine whether the IRS      excessive and do not have a reasonable basis.
is properly assessing the erroneous claim for
refund or credit penalty on individual tax            The IRS agreed with the recommendation and
accounts.                                             stated that a cross-functional team of affected
                                                      stakeholders will determine the operational and
WHAT TIGTA FOUND                                      procedural changes needed to integrate
                                                      assessment of the erroneous refund penalty into
The IRS incorrectly interpreted the erroneous
                                                      the Campus Operations.
refund penalty law, which significantly limited the
types of erroneous tax refund or credit claims to
which the penalty would apply. The IRS
assessed only 84 erroneous refund penalties
totaling $1.9 million between May 2007 and
May 2012.
In response to concerns raised from various IRS
functions, the IRS Office of Chief Counsel
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 26, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Law Which Penalizes Erroneous Refund and
                             Credit Claims Was Not Properly Implemented (Audit # 201240040)

 This report presents the results of our review of whether the Internal Revenue Service (IRS) is
 effectively assessing the erroneous claim for refund or credit penalty on individual taxpayer
 accounts. This audit was conducted as part of our Fiscal Year 2013 Annual Audit Plan and
 addresses the major management challenge of Fraudulent Claims and Improper Payments.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. Please contact me if you have questions or Russell P. Martin, Acting Assistant
 Inspector General for Audit (Returns Processing and Account Services).
                                     The Law Which Penalizes Erroneous Refund
                                   and Credit Claims Was Not Properly Implemented




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          The Erroneous Refund Penalty Law Was Incorrectly
          Interpreted ..................................................................................................... Page 5
          Processes and Procedures Have Not Been Developed
          to Enable Campus Operations to Assess Erroneous
          Refund Penalties ........................................................................................... Page 5
                    Recommendation 1:.......................................................... Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Outcome Measure ................................................................ Page 14
          Appendix V – Office of Audit’s Comments on Management’s Response ... Page 15
          Appendix VI – Management’s Response to the Draft Report ...................... Page 19
           The Law Which Penalizes Erroneous Refund
         and Credit Claims Was Not Properly Implemented




                  Abbreviations

EITC        Earned Income Tax Credit
I.R.C.      Internal Revenue Code
IRS         Internal Revenue Service
TIGTA       Treasury Inspector General for Tax Administration
                               The Law Which Penalizes Erroneous Refund
                             and Credit Claims Was Not Properly Implemented




                                           Background

In its September 30, 2005, Semiannual Report to Congress, the Treasury Inspector General for
Tax Administration (TIGTA) reported that certain tax refund schemes were overwhelming
Internal Revenue Service (IRS) resources to the point at which the IRS was unable to prevent the
issuance of erroneous refunds.1 The Joint Committee on
Taxation expressed a similar concern, stating that the filing        The erroneous refund
of refund claims that have no reasonable basis in law creates        penalty was created to
                                                                     discourage taxpayers
unnecessary burden on both taxpayers and the IRS by                 from making erroneous
straining resources and impeding effective tax                      refund or credit claims.
administration.2
In response to these concerns, Congress enacted legislation that provides the IRS with the
erroneous claim for refund or credit penalty (referred to as the erroneous refund penalty) for use
as a tool to deter aggressive claims for tax refunds by increasing the cost to individuals who
attempt to erroneously claim these refunds. The Small Business and Work Opportunity Tax Act
of 20073 amended the Internal Revenue Code (I.R.C.) to allow for a monetary penalty for
erroneous tax refund or tax credit claims. I.R.C. Section (§) 6676 states:
    (a) Civil penalty.
        If a claim for refund or credit with respect to income tax (other than a claim for a
        refund or credit relating to the earned income credit under section 32) is made for
        an excessive amount, unless it is shown that the claim for such excessive amount
        has a reasonable basis, the person making such claim shall be liable for a penalty
        in an amount equal to 20 percent of the excessive amount.
    (b) Excessive amount.
        For purposes of this section, the term “excessive amount” means in the case of
        any person the amount by which the amount of the claim for refund or credit for
        any taxable year exceeds the amount of such claim allowable under this title for
        such taxable year.




1
  TIGTA, TIGTA Semiannual Report to Congress, April 1, 2005 – September 30, 2005.
2
  Joint Committee on Taxation, JCS-2-07, Description of Revenue Provisions Contained in the President’s Fiscal
Year 2008 Budget Proposal (March 2007).
3
  Pub.L. No. 110-28, §§ 8201-8248.
                                                                                                         Page 1
                                The Law Which Penalizes Erroneous Refund
                              and Credit Claims Was Not Properly Implemented



    (c) Noneconomic substance transactions treated as lacking reasonable basis.
         For purposes of this section, any excessive amount which is attributable to any
         transaction described in section 6662(b)(6)4 shall not be treated as having a
         reasonable basis.
    (d) Coordination with other penalties.
         This section shall not apply to any portion of the excessive amount of a claim
         for refund or credit which is subject to a penalty imposed under part II of
         subchapter A of chapter 68.5
Prior to the creation of this penalty, there was generally no monetary cost to an individual who
submitted a tax return with an erroneous refund or credit claim that the IRS denies before the
refund is issued. The penalty could be applied to individuals filing tax returns (including original
income tax returns and amended tax returns) after May 25, 2007. The erroneous refund penalty
is 20 percent of the excessive refund or credit amount claimed. For example:
         Taxpayer A files a tax return claiming a refund of $5,000. The refund includes
         $3,200 in refundable tax credits.6 The IRS determines that the individual’s claim
         for the refundable tax credits is erroneous and denies the claim, preventing the
         individual from receiving the $3,200. The IRS determines that the entire claim is
         more than the taxpayer is entitled to receive (excessive) and without a reasonable
         basis. The IRS can assess an erroneous refund penalty totaling $640 against this
         taxpayer (20 percent of the $3,200 claim).

The law provides certain exemptions from the penalty
In general, the erroneous refund penalty can be assessed on tax returns where the IRS detects an
erroneous refund or credit claim at the time the tax return is processed. The law provides an
exemption from the erroneous refund penalty for individuals with erroneous claims for refunds
or credits that are supported by a reasonable basis. A reasonable basis is established only if the
individual can demonstrate that he or she relied on legal authority such as a court ruling or
legislative history when making the claim.




4
  I.R.C. § 6662(b)(6) describes tax benefits that are disallowed due to a lack of economic substance. For a
transaction to have economic substance, a taxpayer must have had a substantial reason for entering into the
transaction, and the transaction must change the taxpayer’s economic position in a meaningful way.
5
  Part II of Subchapter A of Chapter 68 of the I.R.C. allows for the assertion of certain penalties when the
disallowance of a tax item results in an additional tax assessment (underpayment of tax or a tax liability). These
penalties include the accuracy-related penalty and fraud penalty.
6
  A refundable credit can reduce a taxpayer’s liability to zero, and any credit amount over the tax liability can be
refunded to the taxpayer. In contrast, a nonrefundable credit can only reduce the tax liability to zero.
                                                                                                                Page 2
                                The Law Which Penalizes Erroneous Refund
                              and Credit Claims Was Not Properly Implemented



In addition, the erroneous refund penalty cannot be assessed if the denied claim was for the
Earned Income Tax Credit (EITC). Congress exempted the EITC from this penalty because the
I.R.C. already contains specific penalties for taxpayer noncompliance with the EITC.7 For
example, individuals who incorrectly claim the EITC can be banned from receiving the credit for
the next two subsequent tax years if the error is because of reckless or intentional disregard of
the rules or may be banned from claiming the EITC for the next 10 subsequent tax years if the
error is because of fraud.
Finally, the erroneous refund penalty cannot be assessed if certain other penalties such as the
accuracy-related penalty8 and/or fraud penalty9 apply. The I.R.C. allows for the assessment of
other penalties when the disallowance of a credit results in a tax liability. For example, an
individual files his or her tax return and receives a $5,000 tax refund. The IRS subsequently
determines the individual was not entitled to receive the tax refund and reverses the refund on the
individual’s tax account, creating a $5,000 tax liability that the individual must pay. In this
instance, the individual would not be subject to the erroneous refund penalty since the
disallowance of the refund was subsequent to issuance and resulted in a tax liability. However,
this individual could be assessed the accuracy-related and/or fraud penalties.

An IRS study was conducted to determine how best to implement the erroneous
refund penalty law in IRS Campus Operations
In November 2008, the IRS completed a study of how best to implement the erroneous refund
penalty law within IRS Campus Operations. The study concluded that the IRS should establish a
separate unit solely responsible for processing and assessing the erroneous refund penalty. The
proposal was to send tax returns that may be subject to the penalty to this new unit for further
consideration, regardless of where the tax return was worked originally. IRS management
estimated that establishing and maintaining an erroneous refund penalty unit would cost at least
$3.4 million per year and could result in the assessment of $101 million in penalties each year.
However, IRS management cautioned that the estimated cost figures included in the study are
understated because they do not include indirect or overhead costs.
The study further concluded that establishing a single unit to review disallowed refund claims
and assess the erroneous refund penalty when warranted would assist the IRS in ensuring that the
penalty is being applied consistently. In addition, establishing this single unit would allow the
IRS to minimize the number of employees it would need to train and the number of processes
that would need to be modified. To date no actions have been taken on the part of the IRS to
implement the recommendations of the study.

7
  I.R.C. § 32.
8
  The IRS can assess an accuracy-related penalty on any portion of an underpayment of tax required to be shown on
a tax return. This penalty is generally equal to 20 percent of the underpayment.
9
  The IRS can assess the fraud penalty if any part of any underpayment of tax required to be shown on a tax return is
due to fraud. This penalty is equal to 75 percent of the underpayment.
                                                                                                             Page 3
                          The Law Which Penalizes Erroneous Refund
                        and Credit Claims Was Not Properly Implemented



This review was performed in the IRS Office of Chief Counsel (hereafter referred to as IRS
Counsel) in Washington, D.C.; the Office of Servicewide Penalties in New Carrollton, Maryland;
the Small Business/Self-Employed Division Examination function in Washington, D.C.; the
Wage and Investment Division Accounts Management function in Atlanta, Georgia; and the
Submission Processing Site in Fresno, California, during the period September 2012 through
June 2013. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 4
                                The Law Which Penalizes Erroneous Refund
                              and Credit Claims Was Not Properly Implemented




                                      Results of Review

The Erroneous Refund Penalty Law Was Incorrectly Interpreted
The IRS assessed only 84 erroneous refund penalties totaling $1.9 million between May 2007
and May 2012. Penalties have not been assessed because IRS Counsel incorrectly interpreted the
law as to when the IRS had the authority to assess the erroneous refund penalty. Subsequent to
the passage of the erroneous refund penalty law, concerns about the lack of clear guidance as to
when to assess the penalty were reported by various IRS functions to the Office of Servicewide
Penalties.10 In response, IRS Counsel issued a memorandum in November 2009 stating that the
disallowance of a refundable tax credit generally resulted in a tax liability regardless of whether
                                          the tax credit was disallowed before or after the related
   The IRS incorrectly interpreted the
                                          tax refund was issued.
     law as to when the erroneous refund     The guidance in the November 2009 memorandum
     penalty applies. Consequently, only
       84 penalties have been assessed
                                             was an incorrect interpretation of the legislation
       between May 2007 and May 2012.        because it concluded that disallowing a refundable tax
                                             credit before the refund was issued resulted in a tax
                                             liability to the taxpayer. This incorrectly prevented the
IRS from assessing the erroneous refund penalty on these disallowed credits. In May 2012, IRS
Counsel revised its interpretation as to when a tax liability exists with regard to the erroneous
refund penalty and issued an updated memorandum. This new guidance stated that erroneous
refundable tax credits that are disallowed before a tax refund is issued will generally not result in
a tax liability and, therefore, will be subject to the erroneous refund penalty. This guidance
significantly expanded the number of taxpayers to whom the penalty applied. The IRS indicated
that the incorrect interpretation contained in the November 2009 memorandum occurred because
a Treasury Regulation that provided guidance on this subject was not clear.11

Processes and Procedures Have Not Been Developed to Enable
Campus Operations to Assess Erroneous Refund Penalties
Although the IRS revised its interpretation of the law as to when the erroneous refund penalty
applies, it has yet to develop processes and procedures to enable those IRS functions that
disallow the majority of individual tax credits to assess the erroneous refund penalty when


10
   The IRS office that provides coordination of policy and procedures concerning the administration of all IRS Civil
Penalty programs.
11
   Treasury Regulation § 1.6664-2. Underpayment.
                                                                                                             Page 5
                                The Law Which Penalizes Erroneous Refund
                              and Credit Claims Was Not Properly Implemented



applicable. These Campus Operations functions include the Submission Processing function,
Accounts Management function, Return Integrity and Correspondence Services function, and
Campus Examination function. In the year after the IRS revised its interpretation of the law
(June 3, 2012, through May 25, 2013) there were 709,123 individual tax credits12 totaling more
than $7.5 billion disallowed by these functional areas. Applying the 20 percent erroneous refund
penalty rate to the total credit amount disallowed computes to more than $1.5 billion in penalties
that potentially could have been assessed.13 Figure 1 provides a summary of credits disallowed.
     Figure 1: Summary of Tax Credits Disallowed – June 2012 Through May 2013 14

                                              Taxpayer          Disallowed           Disallowed        I.R.C. § 6676
 Type of Disallowed Refund                    Accounts            Claims              Amount          Penalty Amount

 Withheld Taxes                                388,895            388,895         $6,744,111,249      $1,348,822,250
 Refundable Credits                             69,804              73,264          $126,273,533          $25,254,707
             Additional Child Tax Credit        43,463              43,463           $57,773,219          $11,554,644
           Refundable Education Credit          16,309              16,309           $16,336,559           $3,267,312
                         Adoption Credit          1,503              1,503           $13,077,004           $2,615,401
                                                        16
             Other Refundable Credits15         11,946              11,989           $39,086,751           $7,817,350
 Claims for Withheld Taxes
 and Refundable Credits                        120,257            246,964           $680,099,193         $136,019,838
 Total                                         578,956            709,123         $7,550,483,975      $1,510,096,795
Source: TIGTA analysis of the IRS’s Individual Master File.17

In December 2010, based on its prior interpretation of the law, the IRS issued procedures for
assessing the erroneous refund penalty for use by the IRS’s Field Examination function.18


12
   We did not include tax credits disallowed for tax returns involving identity theft.
13
   The determination as to whether a penalty will be assessed is dependent on the conditions surrounding the
disallowance of the tax refund or credit for each individual tax return.
14
   The totals in this chart are taxpayer accounts/returns rather than individual credits. The taxpayer accounts total
does not add to the 709,123 individual tax credits disallowed because some taxpayers claimed multiple refundable
tax credits that were disallowed.
15
   These other refundable credits include: Health Care Coverage Tax Credit, Telephone Excise Tax Credit,
Refundable Credit for prior year minimum tax, Economic Stimulus Payments, First-Time Homebuyer Credit,
Making Work Pay Credit, RRTA [Railroad Retirement Tax Act] Tier 1 Credit, Tax Withheld At Source, Tax
Withheld Section 1446, and Adjustments to Form 8288-A [Statement of Withholding on Dispositions by Foreign
Persons of U.S. Real Property Interests] Withheld.
16
   Some taxpayers claimed multiple refundable tax credits that were disallowed.
17
   The IRS database that maintains transactions or records of individual tax accounts.
18
   The IRS function responsible for examinations of individuals, partnerships, and corporations that occur either at
the taxpayer’s place of business or through interviews at an IRS office.
                                                                                                               Page 6
                            The Law Which Penalizes Erroneous Refund
                          and Credit Claims Was Not Properly Implemented



However, after the IRS revised its interpretation of the law in May 2012, the majority of tax
returns likely to be subject to the penalty are those tax credit claims that are disallowed by the
IRS Campus Operations. As such, the IRS is not able to comply with the requirements of the
law.
Some of the 578,956 tax returns we identified with disallowed credit claims could be the result
of individuals filing a fraudulent tax return. For these types of tax returns, the collectability of
the assessed penalties may be diminished. However, IRS guidance states that the purpose of
penalties is to encourage voluntary compliance by imposing consequences for noncompliance. If
the erroneous refund penalty is not assessed when applicable, there is nothing to deter these
taxpayers from repeatedly filing excessive erroneous credit claims. As a result, individuals will
continue to make questionable claims on their tax returns, burdening IRS resources and
increasing the cost of addressing taxpayers’ noncompliance. These are the individuals that the
law was intended to penalize.

Management could not provide support for its decision to forego the processes
and procedures necessary for Campus Operations to assess these penalties
IRS management raised concerns about the costs and benefits of establishing processes and
procedures for the Campus Operations to assess erroneous refund penalties. Management was
concerned that expanding the ability to assess the penalty to these functions could result in:
      Significant costs to develop new processes and procedures and train IRS employees.
      Having to shift limited resources from existing compliance programs, which may actually
       hinder rather than improve compliance.
      Increased taxpayer burden because of inconsistent treatment of taxpayers when assessing
       the penalties.
On June 19, 2012, based on the above concerns, the IRS decided that it would not develop
processes and procedures necessary to assess the erroneous refund penalty. The IRS has not
provided any documentation and/or analysis to support the validity of these concerns. In view
of the significant problem of erroneous claims for credits and refunds and the related costs to the
Government, we believe that the IRS should reexamine its decision and put appropriate
procedures and processes in place to comply with this section of law.

Applying the penalty to the excess credit amount provides a more consistent
application of the penalty
The law allows the IRS to assess the penalty on either the excess refund amount or the excess
credit amount. Our analysis of the 84 tax accounts on which the IRS assessed the erroneous
refund penalty of $1.9 million during the period May 2007 to May 2012 found that the IRS



                                                                                              Page 7
                                   The Law Which Penalizes Erroneous Refund
                                 and Credit Claims Was Not Properly Implemented



assessed the penalty using the excess credit amount.19 In our opinion, assessing of the penalty on
the excess credit amount results in a more consistent treatment of taxpayers. As such, this is the
method we used to compute the potential amount of penalties that could be assessed. Figure 2
illustrates the difference between assessing the penalty on the excess credit amount and the
excess refund amount.
       Figure 2: Illustration of the Assessment of the Erroneous Refund Penalty

                                                                              Taxpayer A         Taxpayer B

     Disallowed Refundable Credit Amount                                         $1,000            $1,000
     Tax Liability                                                                $500                $0
     Tax Refund Amount Associated With the Disallowed
     Refundable Credit                                                            $500             $1,000
     (excess of the refundable credit over tax liability)

     Erroneous Refund Penalty:
            Assessed on the Disallowed Credit
                                                                                  $200              $200
            (20% x disallowed credit amount)

            Assessed on the Excess Refund
                                                                                  $100              $200
            (20% x tax refund associated with the disallowed credit)

     Source: Hypothetical illustration based on TIGTA’s analysis of I.R.C. § 6676 and erroneous refund penalties
     assessed by the IRS between May 2007 and May 2012.

Assessing the penalty using the excess refund amount causes the erroneous refund penalty
amount to vary based on an individual’s tax liability. Individuals with a higher tax liability who
erroneously claim a credit will be assessed a lower erroneous refund penalty compared to
individuals who have a lower tax liability, resulting in an inconsistent application of the penalty.

Recommendation
Recommendation 1: The Commissioner, Small Business/Self-Employed Division, and the
Commissioner, Wage and Investment Division, should develop processes and procedures to
enable Campus Operations to assess the erroneous refund penalty for disallowed credit claims
that are excessive and do not have a reasonable basis.
          Management’s Response: The IRS agreed with our recommendation. A
          cross-functional team of affected stakeholders will determine the operational and
          procedural changes needed to integrate assessment of the erroneous refund penalty into


19
  The IRS assessed the erroneous refund penalty on the disallowed credit amount in 42 of the 84 tax returns. A lack
of data prevented us from determining how the IRS calculated the penalty amount on the remaining 42 returns.
                                                                                                            Page 8
                   The Law Which Penalizes Erroneous Refund
                 and Credit Claims Was Not Properly Implemented



the campus environment. Consideration will be given to the administrative policy,
available resources, funding needs, and opportunity costs associated with the redirection
of compliance resources. The corrective action will be closed upon presenting the team’s
findings and recommendations to the Office of the Deputy Commissioner for Services
and Enforcement.
Office of Audit Comment: Although the IRS agreed to take corrective action in
response to this recommendation, it did not agree with the related outcome measure.
However, we believe the IRS’s comments providing the rationale for its disagreement are
factually inaccurate. We provide our perspective on the IRS’s comments in Appendix V.




                                                                                  Page 9
                               The Law Which Penalizes Erroneous Refund
                             and Credit Claims Was Not Properly Implemented



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is effectively assessing the
erroneous claim for refund or credit penalty on individual taxpayer accounts. To accomplish our
objective, we:
I.      Evaluated the adequacy of the controls for ensuring that the I.R.C. § 6676 penalty
        (hereafter referred to as the erroneous refund penalty) is properly considered and applied
        during examinations of erroneous claims for refunds or credits.
II.     Determined if the IRS was assessing the erroneous refund penalty on cases to which the
        penalty may apply and the potential tax effect of nonassertion.
        A. Obtained an extract from the Individual Master File1 maintained on the TIGTA Data
           Center Warehouse2 to identify tax returns filed between June 3, 2012, and
           May 25, 2013, for which a claim for a tax credit was disallowed before the refund
           was issued and for which no erroneous refund penalty was assessed. We filtered the
           data to include only those disallowed claims that were $500 or more, were not
           assessed an accuracy-related penalty or fraud penalty, and did not have indications of
           identity theft. We also eliminated disallowed refundable credits that were filed using
           an Internal Revenue Service Number.
        B. Validated our data by comparing a random sample of 25 records to the IRS’s
           Integrated Data Retrieval System3 and determined that the data were sufficiently
           reliable for purposes of this report.
        C. Analyzed the 84 tax returns on which the erroneous refund penalty was assessed by
           the IRS between May 2007 and May 2012 and determined how the penalty amount
           was calculated.
III.    Assessed the status of ongoing changes to the erroneous refund penalty. We interviewed
        IRS management and policy analysts to identify ongoing changes (policy and procedural
        changes, training, etc.) that would have an impact on the assertion of the erroneous
        refund penalty and evaluated the effectiveness of those changes.


1
  The IRS database that maintains transactions or records of individual tax accounts.
2
  The Data Center Warehouse is a collection of IRS databases containing various types of taxpayer account
information that is maintained by TIGTA for the purpose of analyzing data for ongoing audits.
3
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 10
                          The Law Which Penalizes Erroneous Refund
                        and Credit Claims Was Not Properly Implemented



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
practices related to the consideration and assessment of the erroneous refund penalty. We
evaluated these controls by reviewing tax returns where the erroneous refund penalty appears to
be applicable to ensure that the penalty was assessed.




                                                                                        Page 11
                         The Law Which Penalizes Erroneous Refund
                       and Credit Claims Was Not Properly Implemented



                                                                             Appendix II

                 Major Contributors to This Report

Randee Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Kyle Andersen, Director
Deann Baiza, Director
Larry Madsen, Audit Manager
Levi J. Dickson, Lead Auditor
Mark Willoughby, Senior Auditor




                                                                                     Page 12
                        The Law Which Penalizes Erroneous Refund
                      and Credit Claims Was Not Properly Implemented



                                                                        Appendix III

                        Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Operations, Wage and Investment Division SE:W
Deputy Commissioner, Support, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Exam Policy, Small Business/Self-Employed Division SE:S:E:EP
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFC:CPIC:IC
Audit Liaisons:
    Commissioner, Small Business/Self-Employed Division SE:S
    Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI




                                                                                Page 13
                                The Law Which Penalizes Erroneous Refund
                              and Credit Claims Was Not Properly Implemented



                                                                                                 Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $1,510,096,795 ($7,550,483,975 over five years) in
    unassessed I.R.C. § 6676 penalty assessments on 578,956 taxpayer accounts from
    June 3, 2012, to May 25, 2013 (see page 5).

Methodology Used to Measure the Reported Benefit:
From the IRS Individual Master File,1 we obtained a computer extract of disallowed refundable
tax credits claimed between June 3, 2012, and May 25, 2013. We used the following criteria to
identify the erroneous refund penalties that should have been assessed during that time period:
    1. Prerefund Disallowance – We included only erroneous credit claims that the IRS denied
       before the refund was issued by comparing the date of the disallowed refundable tax
       credit to the date of the tax refund (if any).
    2. No Other Applicable Penalties – We excluded tax returns where the accuracy-related
       penalty, the fraud penalty, or the erroneous refund penalty had already been assessed.
    3. No Identity Theft – We excluded tax returns where there was an indication of identity
       theft on the entity module.
Using these criteria, we identified 709,123 disallowed tax credits claimed on 578,956 tax returns
for which erroneous refund penalties could have been potentially assessed by the IRS. The
amount of erroneous credits disallowed by the IRS totaled $7,550,483,975. We multiplied
0.20 (20 percent penalty) by the total disallowed amount of $7,550,483,975 and calculated
$1,510,096,795 in potential erroneous refund penalty assessments that the IRS could have made
between June 3, 2012, and May 25, 2012. We estimate the IRS may not assess $7,550,483,975
($1,510,096,795 x 5) in erroneous refund penalties over the next five years.2


1
  The IRS database that maintains transactions or records of individual tax accounts.
2
  This estimate is based on refundable tax credits contained in the I.R.C. at the time of our review. Some refundable
tax credits may expire within the next five years. In addition, Congress may enact additional refundable tax credits
within the next five years.
                                                                                                            Page 14
                           The Law Which Penalizes Erroneous Refund
                         and Credit Claims Was Not Properly Implemented



                                                                                    Appendix V

                     Office of Audit’s Comments on
                        Management’s Response

The IRS agreed to the recommendation in this report and plans to take corrective action.
However, in its response, IRS management also provided some general comments and assertions
that we believe are factually inaccurate. We provide our perspective on the IRS’s comments
below.

IRS Assertion: The corrective action, whether accomplished manually or through automation,
will have associated costs (both direct and opportunity) substantially higher than the estimated
annual direct labor costs of $3.4 million cited in the report.
     Office of Audit Comment: As stated in the report, the $3.4 million estimated annual
     cost to establish and maintain an erroneous refund penalty unit was an estimate by the IRS,
     not TIGTA. This estimate was included in an IRS study completed in November 2008.
     The IRS provided no documentation or analysis during the audit supporting its assertion of
     the significant costs to develop new processes and procedures.
IRS Assertion: The determination of reasonable basis is a judgmental decision based on a
review of the position taken on the return and all applicable supporting authorities for the
position. In a declining budget environment, this will require the reassignment of examiners
from other critical priority compliance work, such as identity theft and refund fraud.
     Office of Audit Comment: We discussed the reasonable basis standard with IRS
     Counsel on January 15, 2013. IRS Counsel indicated that the reasonable basis standard is a
     relatively high standard to meet and it is unlikely that many taxpayers meet that standard.
     Further, IRS Counsel informed us that if a reasonable basis defense is not shown with the
     claim for refund or credit when the tax return is filed, the IRS can legally assess the penalty
     immediately and without any correspondence with the taxpayer. As such, it is unlikely that
     the IRS would need to reassign examiners from other critical work to make a determination
     as to reasonable basis.
IRS Assertion: We disagree with the projected Outcome Measure of $7.6 billion in the report
because it is based on a fundamental legal misunderstanding of the difference between a “claim
for refund or credit” and a “refundable credit” within the meaning of the Internal Revenue
Code.
     Office of Audit Comment: The projected outcome measure is fully consistent with
     Internal Revenue Code Section 6676. I.R.C. Section 6676 states that the erroneous refund

                                                                                            Page 15
                           The Law Which Penalizes Erroneous Refund
                         and Credit Claims Was Not Properly Implemented



     penalty can be assessed on an excessive claim for refund or an excessive claim for credit.
     As noted on page seven in the report, our outcome measure is computed using the excessive
     claim for credit and is consistent with IRS guidance provided to its field functions regarding
     penalty application. Furthermore, as we have detailed in our report, assessing the erroneous
     refund penalty using the excess refund amount would result in the inconsistent treatment of
     taxpayers as shown in Figure 2 on page eight of the report.
IRS Assertion: In addition, more than one-half of the 578,956 accounts upon which the
$7.6 billion projection is based were found to have been identified as potentially fraudulent
returns by the Electronic Fraud Detection System (EFDS). Common characteristics of these
returns such as no response from the taxpayers, an inability to confirm wage and withholding
amounts with employers, and the subsequent elimination of the reported wage and withholding
amounts indicate the returns were not filed by the taxpayer. Similar characteristics were found
with those returns that had been referred to pre-refund examination where other refundable
credits, in addition to false withholding credits, had been claimed. These attributes strongly
suggest that the denied refund claims were not filed by the individuals to whom the Social
Security Numbers had been assigned. Penalties imposed on these returns are not appropriate
and would have no effect on voluntary compliance as the filer of the fraudulent return is
unknown to the Service and would result in additional administrative costs incurred to abate
them in the event a positive determination is made that identity theft has occurred.
     Office of Audit Comment: We agree that the erroneous refund penalty should not be
     imposed on tax returns that are the result of identity theft. As such, the 578,956 tax returns
     on which our outcome is computed do not include tax returns that, at the time of our
     review, contained any of the specific identity theft codes the IRS uses to designate a tax
     return as potential or confirmed identity theft. This fact is included in footnote 12 on page
     six of our report.
IRS Assertion: We also disagree with the statement that the Treasury Inspector General for
Tax Administration (TIGTA) has made in the report that IRS management has disregarded its
responsibility for establishing processes and procedures for assessing the erroneous claim
penalty. At the time the penalty provisions were enacted, and afterward, the IRS faced an
unprecedented year-by-year increase in the number of fraudulent claims for refund by
unscrupulous individuals. Identifying and stopping those fraudulent claims has been the
foremost priority.
     Office of Audit Comment: As noted in our report, the unprecedented growth in
     erroneous and fraudulent tax credit claims that the IRS refers to was the driving factor for
     the enactment of the erroneous refund penalty. Congress enacted the erroneous refund
     penalty in May 2007 in response to concerns raised by the Joint Committee on Taxation
     and TIGTA with regard to the impact of the growth in erroneous and fraudulent claims on
     both taxpayers and the IRS. Implementing the penalty should have been an integral part of
     the IRS efforts to combat these improper claims.

                                                                                            Page 16
                           The Law Which Penalizes Erroneous Refund
                         and Credit Claims Was Not Properly Implemented



IRS Assertion: Moreover, we disagree with the characterization that erroneous Chief Counsel
advice, which was later corrected, caused any failure to implement the section 6676 penalty.
       Office of Audit Comment: As we noted in the report, the original advice issued by
       IRS Chief Counsel in November 2009 incorrectly stated that the disallowance of an
       erroneous refundable credit prior to the issuance of the tax refund results in a tax liability.
       I.R.C. § 6676 states:
              This section shall not apply to any portion of the excessive amount of a
              claim for refund or credit which is subject to a penalty imposed under
              part II of subchapter A of chapter 68.
       Part II of Subchapter A of Chapter 68 of the Internal Revenue Code allows for the
       assertion of certain penalties when the disallowance of a tax item results in an additional
       tax assessment (underpayment of tax or a tax liability). As such, Chief Counsel’s
       November 2009 guidance generally excluded any refundable tax credit that was
       disallowed before the refund was issued from the erroneous refund penalty. Consistent
       with the November 2009 guidance, the IRS did not develop procedures to assess the
       erroneous refund penalty in its Campus Operations, where most erroneous refund and
       credit claims are disallowed prior to issuance of the refund. The incorrect guidance
       remained in place from May 2009 to May 2012, when Chief Counsel reversed its position
       with regard to the existence of a tax liability when a tax refund or credit claim is
       disallowed prior to the issuance of a refund.
IRS Assertion: Finally, it is misleading to report that IRS management decided on
June 19, 2012, that it will not assess the erroneous refund penalty at Submission Processing Site
functions. The communication to which the TIGTA refers was guidance provided by an analyst
in response to questions the campuses had raised after the Chief Counsel advice had been issued
in May 2012.
       Office of Audit Comment: The documentation supporting the statement included in
       our report was provided to us by a program manager during a visit at one of the IRS
       campuses. Although the original email containing the guidance was initiated by a
       program analyst, the wording makes clear that the Wage and Investment and Small
       Business/Self-Employed Divisions coordinated on a response to the program managers to
       confirm that the erroneous refund penalty would not be assessed by Campus Operations.
       We have discussed this issue with IRS management previously and they have never
       stated that the email was unauthorized or inaccurately conveyed management’s decision.
       The June 19, 2012, communication was sent to various campus program managers and
       states the following:




                                                                                             Page 17
                    The Law Which Penalizes Erroneous Refund
                  and Credit Claims Was Not Properly Implemented



Good afternoon:
Several campuses have asked if Exam should assert the IRC 6676 penalty on non-EITC
cases with frozen refunds. The Campuses asked this question in response to Counsel’s
memorandum. The memorandum stated that taxpayers might be liable for a penalty
under IRC 6676.
Wage and Investment and SBSE have discussed this issue and agree that the IRC 6676
penalty should not be assessed at the Campus level because:
       1.     The penalty cannot be assessed via RGS [Report Generation Software]
       2.     The penalty must be assessed using MFT [Master File Tax] 55, and
       3.     A separate penalty file must be created whenever the IRC 6676 penalty is
              asserted. (The penalty file is not established on AIMS [Audit Information
              Management System])




                                                                                Page 18
          The Law Which Penalizes Erroneous Refund
        and Credit Claims Was Not Properly Implemented



                                                 Appendix VI

Management’s Response to the Draft Report




                                                         Page 19
  The Law Which Penalizes Erroneous Refund
and Credit Claims Was Not Properly Implemented




                                                 Page 20
  The Law Which Penalizes Erroneous Refund
and Credit Claims Was Not Properly Implemented




                                                 Page 21
  The Law Which Penalizes Erroneous Refund
and Credit Claims Was Not Properly Implemented




                                                 Page 22
